No. 19-161

 

IN THE
Supreme Court of the Anited States

DEPARTMENT OF HOMELAND SECURITY, ET AL.,

Petitioners,
v.

‘VIJAYAKUMAR THURAISSIGIAM,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF AMERICAN BAR ASSOCIATION AS
AMICUS CURIAE IN SUPPORT OF
RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,063 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

 

Colin Casey Hogan
Wilson-Epes Printifig Co., Inc.
